Elizabeth B. Prelogar
Brian H. Fletcher
Acting Solicitor General
Bruce S. Gelber
Deputy Assistant Attorney General
Megan E. Greenfield
Eric G. Hostetler
Benjamin Carlisle
DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, D.C. 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov
Counsel for U.S. Environmental Protection Agency and Michael Regan, Administrator of the
U.S. Environmental Protection Agency

Benjamin Carlisle
Meghan Greenfield
U.S. DEPARTMENT OF JUSTICE ENVIRONMENT AND NATURAL RESOURCES
DIVISION
PO Box 7611, Ben Franklin Station Washington, DC 20044-7415
(202) 514-9771
benjamin.carlisle@usdoj.gov meghan.greenfield@usdoj.gov
Counsel for U.S. Environmental
Protection Agency and Michael Regan, Administrator of the U.S. Environmental Protection
Agency

Elbert Lin
F. William Brownell
HUNTON ANDREWS KURTH LLP
Riverfront Plaza, East Tower
951 East Byrd Street
Richmond, VA 23219
(804) 788-7202
ELin@hunton.com
bbrownell@HuntonAK.com
Counsel for America’s Power
David Michael Flannery
Amy M. Smith
STEPTOE & JOHNSON PLLC
P.O. Box 1588
Charleston, WV 25326
(304) 353-8000

dave.flannery@steptoe-johnson.com
Amy.Smith@steptoe-johnson.com
Counsel for AEP Generating Company, AEP Generation Resources Inc., Appalachian Power
Company, Indiana Michigan Power Company, Kentucky Power Company, Public Service
Company of Oklahoma, Southwestern Electric Power Company, Wheeling Power Company,
Indiana Energy Association, and Indiana Utility Group
Scott Allen Keller
Jeremy Evan Maltz
BAKER BOTTS LLP
700 K Street, NW
Washington, DC 20001-5692
(202) 639-7700
scott.keller@bakerbotts.com
jeremy.maltz@bakerbotts.com
Counsel for Chamber of Commerce of the United States of America
John David Lazzaretti
John A. Rego
SQUIRE PATTON BOGGS (US) LLP
4900 Key Tower
127 Public Square
Cleveland, OH 44114-1304
(216) 479-8350
john.lazzaretti@squirepb.com
jrego@beneschlaw.com
Counsel for Murray Energy Corporation
Carroll Wade McGuffey, III
TROUTMAN PEPPER HAMILTON SANDERS LLP
600 Peachtree Street, NE
Suite 3000
Atlanta, GA 30308-2216
(404) 885-3698
mack.mcguffey@troutman.com
Misha Tseytlin
TROUTMAN PEPPER HAMILTON SANDERS LLP
227 W. Monroe St., Suite 3900
Chicago, IL 60606
(312) 759-5947
misha.tseytlin@troutman.com
Counsel for National Mining Association

Mark W. DeLaquil
Andrew Michael Grossman
BAKER & HOSTETLER LLP
Washington Square
1050 Connecticut Avenue, NW
Suite 1100
Washington, DC 20036-5304
(202) 861-1500
(202) 861-1697
mdelaquil@bakerlaw.com
agrossman@bakerlaw.com
Counsel for Westmoreland Mining Holdings LLC
Joseph Anthony Scalfani
OFFICE OF MISSISSIPPI GOVERNOR PHIL BRYANT
PO Box 139
Jackson, MS 39205
(601) 576-2807
Joseph.Sclafani@governor.ms.gov
Counsel for Phil Bryant, Governor of the State of Mississippi
Thomas Allen Lorenzen
CROWELL & MORING LLP
1001 Pennsylvania Avenue, NW
Washington, DC 20004-2595
(202) 624-2789
tlorenzen@crowell.com
Counsel for National Rural Electric Cooperative Association
Emily Church Schilling
HOLLAND & HART, LLP
901 K Street, NW, Suite 850
Washington, DC 20001
(202) 654-6922
ecschilling@hollandhart.com
Tina R. Van Bockern
HOLLAND & HART, LLP
555 17th Street, Suite 3200
Denver, CO 80202
(303) 295-8107
TRVanBockern@hollandhart.com
Counsel for Basin Electric Power Cooperative

Angela Jean Levin
TROUTMAN PEPPER HAMILTON SANDERS LLP
Three Embarcadero Center, Suite 800
San Francisco, CA 94111
(415) 477-5700
angela.levin@troutmansanders.com
Counsel for Georgia Power Company
William Daniel Booth
MICHAEL BEST & FRIEDRICH, LLP
1000 Maine Avenue, SW
Suite 400
Washington, DC 20024
(202) 747-9658
wdbooth@michaelbest.com
Counsel for Mississippi Public Service Commission
Yaakov M. Roth
Stephen J. Petrany
JONES DAY
51 Louisiana Ave., NW
Washington, D.C. 20001
(202) 879-3939
yroth@jonesday.com
Counsel for North American Coal Corporation
Michael A. Zody
Jacob Santini
PARSONS BEHLE & LATIMER
201 South Main Street
Suite 1800
Salt Lake City, UT 84111
(801) 532-1234
mzody@parsonsbehle.com
jsantini@parsonsbehle.com
Counsel for Nevada Gold Mines LLC and Nevada Gold Energy LLC
C. Grady Moore, III
BALCH & BINGHAM LLP
1901 6th Avenue North, Suite 1500
Birmingham, AL 35201
(205) 251-8100
gmoore@balch.com
Counsel for Powersouth Energy Cooperative

Edmund Gerard LaCour, Jr.
OFFICE OF THE ATTORNEY GENERAL
501 Washington Avenue
Montgomery, AL 36130
(334) 353-2196
elacour@ago.state.al.us
Counsel for State of Alabama
Nicholas J. Bronni
Vincent M. Wagner
OFFICE OF THE ATTORNEY GENERAL
323 Center Street, Suite 200
Little Rock, AR 72201
(501) 682-6302
nicholas.bronni@arkansasag.gov
Vincent.wagner@arkansasag.gov
Counsel for State of Arkansas
Treg R. Taylor
OFFICE OF THE ATTORNEY GENERAL
1031 West 4th Avenue, Suite 200
Anchorage, AK 99501
(907) 269-5200
attorney.general@alaska.gov
Counsel for State of Alaska
Andrew Pinson
STATE OF GEORGIA
DEPARTMENT OF LAW
40 Capitol Square, SW
Atlanta, GA 30334-1300
(404) 458-3409
apinson@law.ga.gov
Counsel for State of Georgia
Thomas M. Fisher
OFFICE OF THE INDIANA
ATTORNEY GENERAL
Indiana Government Center South
302 West Washington Street, 5th Floor
Indianapolis, IN 46204
(317) 234-6843
tom.fisher@atg.in.gov
Counsel for State of Indiana

Steven Travis Mayo
Stephen Chad Meredith
OFFICE OF THE ATTORNEY GENERAL
700 Capitol Avenue, Suite 106
Frankfort, KY 40601
(502) 564-2611
(502) 696-5300
travis.mayo@ky.gov
Chad.meredith@ky.gov
Counsel for State of Kentucky, by and through Governor Matthew G. Bevin

Dean John Sauer
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
PO Box 899
Jefferson City, MO 65102
(573) 751-8807
john.sauer@ago.mo.gov
Counsel for State of Missouri
Justin D. Lavene
OFFICE OF THE ATTORNEY GENERAL
2115 State Capitol
PO Box 98920
Lincoln, NE 68509-8920
(402) 471-2064
justin.lavene@nebraska.gov
Counsel for State of Nebraska
Jeffrey Allyn Chanay
OFFICE OF THE KANSAS
ATTORNEY GENERAL
120 SW 10th Avenue, 2nd Floor
Topeka, KS 66612
(785) 296-2215
jeff.chanay@ag.ks.gov
Counsel for State of Kansas
Elizabeth Baker Murrill
LOUISIANA ATTORNEY GENERAL
PO Box 94005
Baton Rouge, LA 70804
(225) 326-6766
murrille@ag.louisiana.gov
Counsel for State of Louisiana

Jeremiah Langston
OFFICE OF THE ATTORNEY GENERAL
Justice Building 215 North Sanders
Helena, MT 59620-1401
(406) 444-7008
jeremiah.langston@mt.gov
Counsel for State of Montana
Benjamin Michael Flowers
OFFICE OF THE ATTORNEY GENERAL
30 East Broad Street, 17th Floor
Columbus, OH 43215-3428
(614) 728-7511
benjamin.flowers@ohioattorneygeneral.gov
Counsel for State of Ohio
Mithun Mansinghani
OFFICE OF THE ATTORNEY GENERAL
313 N.E. 21st Street
Oklahoma City, OK 73105
(405) 522-4392
mithun.mansinghani@oag.ok.gov
Counsel for State of Oklahoma
James Emory Smith, Jr.
OFFICE OF THE ATTORNEY GENERAL
PO Box 11549
Columbia, SC 29211
(803) 734-3680
esmith@scag.gov
Counsel for State of South Carolina
Judd Edward Stone II
OFFICE OF THE ATTORNEY GENERAL
P.O. Box 12548
Austin, TX 78711-2548
(512) 936-1700
judd.stone@oag.texas.gov
Counsel for State of Texas
James Kaste
OFFICE OF THE ATTORNEY GENERAL
2320 Capitol Avenue
Cheyenne, WY 82002

(307) 777-6946
james.kaste@wyo.gov
Counsel for State of Wyoming
Steven Robert Blair
OFFICE OF THE ATTORNEY GENERAL
1302 East Highway 14, Suite 1
Pierre, SD 57501-8501
(605) 773-3215
steven.blair@state.sd.us
Counsel for State of South Dakota
Melissa Ann Holyoak
Tyler Richard Green
UTAH STATE CAPITOL COMPLEX
350 North State Street, Suite 230
Salt Lake City, UT 84114-2320
(801) 538-9600
melissaholyoak@agutah.gov
tyler@consovoymccarthy.com
Counsel for State of Utah
James P. Duffy
Ann Brewster Weeks
CLEAN AIR TASK FORCE
114 State Street, 6th Floor
Boston, MA 02109
(617) 359-4077
jduffy@catf.us
aweeks@catf.us
Counsel for American Lung Association, American Public Health Association, Appalachian
Mountain Club, Clean Air Council, Clean Wisconsin, Conservation Law Foundation, and
Minnesota Center for Environmental Advocacy
Elizabeth Jones
CENTER FOR BIOLOGICAL DIVERSITY
660 S. Figueroa Street, Suite 1000
Los Angeles, CA 90017
(213) 785-5400
ljones@biologicaldiversity.org
Counsel for Center for Biological Diversity

Brittany E. Wright
CHESAPEAKE BAY FOUNDATION
6 Herndon Avenue
Annapolis, MD 21403
(443) 482-2077
bwright@cbf.org
Counsel for Chesapeake Bay Foundation, Inc.
Debra S. Kalish
Tom Carr
CITY ATTORNEY’S OFFICE
1777 Broadway, 2nd Floor
Boulder, CO 80302
(303) 441-3092
kalishd@bouldercolorado.gov
carrt@bouldercolorado.gov
Counsel for City of Boulder
Kristin Merritt Bronson
CITY AND COUNTY OF DENVER
1437 Bannock Street, Suite 353
Denver, CO 80202
(720) 865-8600
kristin.bronson@denvergov.org
Counsel for City and County of Denver Colorado
Benna Ruth Solomon
CORPORATION COUNSEL OF
THE CITY OF CHICAGO
APPEALS DIVISION
30 North LaSalle Street, Suite 800
Chicago, IL 60602
(312) 744-7764
benna.solomon@cityofchicago.org
Counsel for City of Chicago
Michael James Bostrom
LOS ANGELES CITY
ATTORNEY’S OFFICE AFFIRMATIVE LITIGATION DIVISION
200 N. Spring Street, 14th Floor
Los Angeles, CA 90012
(213) 978-1882
michael.bostrom@lacity.org
Counsel for City of Los Angeles

Scott Schwarz
CITY OF PHILADELPHIA
LAW DEPARTMENT
One Parkway Building 1515
Arch Street
Philadelphia, PA 19102-1595
(215) 683-5170
scott.schwarz@phila.gov
Counsel for City of Philadelphia
Christophe Gagnon Courchesne
David S. Frankel
MASSACHUSETTS OFFICE OF
THE ATTORNEY GENERAL
One Ashburton Place
Boston, MA 02108
(617) 963-2423
christophe.courchesne@state.ma.us
david.frankel@mass.gov
Counsel for Commonwealth of Massachusetts
Paul Kugelman, Jr.
OFFICE OF THE ATTORNEY GENERAL
202 North 9th Street
Richmond, VA 23219
(804) 786-3811
pkugelman@oag.state.va.us
Counsel for Commonwealth of Virginia
Christopher Gene King
NEW YORK CITY LAW DEPARTMENT
100 Church Street
New York, NY 10007
(212) 788-1235
cking@law.nyc.gov
Counsel for City of New York
Thomas Frank Pepe
PEPE & NEMIRE, LLC
1450 Madruga Avenue, Suite 202
Coral Gables, FL 33146
(305) 667-2564
thomaspepe@pepenemire.com
Counsel for City of South Miami

Aimee Diane Thomson
OFFICE OF THE ATTORNEY GENERAL
1600 Arch Street, Suite 300
Philadelphia, PA 19103
(267) 940-6696
athomson@attorneygeneral.gov
Counsel for Commonwealth of Pennsylvania
Karl A. Racine
Loren L. AliKhan
OFFICE OF THE ATTORNEY GENERAL
400 6th Street, NW, Suite 8100
Washington, DC 20001
(202) 727-3400
Loren.AliKhan@dc.gov
Counsel for District of Columbia
Sean H. Donahue
DONAHUE, GOLDBERG & LITTLETON
1008 Pennsylvania Avenue, SE
Washington, DC 20003
(202) 277-7085
sean@donahuegoldberg.com
Counsel for Environmental Defense Fund, and Non-Governmental Organizations and Trade
Association Respondents

Melissa Joy Lynch
David D. Doniger
NATURAL RESOURCES DEFENSE COUNCIL
1152 15th Street, NW, Suite 300
Washington, DC 20005
(202) 717-8296
llynch@nrdc.org
ddoniger@nrdc.org
Counsel for Natural Resources Defense Council
Timothy Eugene Sullivan
Robert William Byrne
OFFICE OF THE ATTORNEY GENERAL
1515 Clay Street, PO Box 70550
Oakland, CA 94612-0550
(510) 622-4038
timothy.sullivan@doj.ca.gov
Robert.Byrne@doj.ca.gov
Counsel for State of California

Scott Norman Koschwitz
Matthew Ivan Levine
OFFICE OF THE ATTORNEY GENERAL
165 Capitol Avenue
Hartford, CT 06106
(860) 808-5250
scott.koschwitz@ct.gov
matthew.levine@ct.gov
Counsel for State of Connecticut
Howard Learner
ENVIRONMENTAL LAW & POLICY CENTER
35 E. Wacker Drive, Suite 1600
Chicago, IL 60601
(312) 673-6500
hlearner@elpc.org
Counsel for Environmental Law and Policy Center
Joanne Marie Spalding
SIERRA CLUB
2101 Webster Street, Suite 1300
Oakland, CA 94612
(415) 977-5725
joanne.spalding@sierraclub.org
Counsel for Sierra Club
Eric Olson
OFFICE OF THE ATTORNEY GENERAL
1300 Broadway
Denver, CO 80203
(720) 508-6548
eric.olson@coag.gov
Counsel for State of Colorado
Valerie Melissa Edge
DELAWARE DEPARTMENT OF JUSTICE
102 West Water Street
Dover, DE 19904
(302) 257-3219
valerie.edge@delaware.gov
Counsel for State of Delaware

William F. Cooper
STATE OF HAWAII DEPARTMENT
OF THE ATTORNEY GENERAL
425 Queen Street
Honolulu, HI 96813
(808) 586-1282
Bill.F.Cooper@Hawaii.gov
Counsel for State of Hawaii
Daniel Isaac Rottenberg
OFFICE OF THE ATTORNEY GENERAL
ENVIRONMENTAL BUREAU
69 West Washington Street, Suite 1800
Chicago, IL 60602
(312) 814-3816
drottenberg@atg.state.il.us
Counsel for State of Illinois
Laura Jensen
OFFICE OF THE ATTORNEY GENERAL
6 State House Station
Augusta, ME 04333-0006
(207) 626-8868
laura.jensen@maine.gov
Counsel for State of Maine
Gillian E. Wener
MICHIGAN DEPARTMENT OF
ATTORNEY GENERAL
P.O. Box 30755
Lansing, MI 48909
(517) 335-7664
wenerg@michigan.gov
Counsel for State of Michigan and the People of the State of Michigan

John B. Howard, Jr.
Joshua Segal
OFFICE OF THE ATTORNEY GENERAL
200 St. Paul Place
Baltimore, MD 21202-2021
(410) 576-6970
jbhoward@oag.state.md.us
jsegal@oag.state.md.us
Counsel for State of Maryland

Peter Surdo
OFFICE OF THE ATTORNEY GENERAL
Town Square Tower
445 Minnesota Street
St. Paul, MN 55101-2127
(651) 757-1061
peter.surdo@ag.state.mn.us
Counsel for State of Minnesota
Heidi Parry Stern
OFFICE OF THE ATTORNEY GENERAL
555 East Washington Avenue
Suite 3100
Las Vegas, NV 89101
(702) 486-3594
hstern@ag.nv.gov
Counsel for State of Nevada
Lisa Jo Morelli
OFFICE OF THE ATTORNEY GENERAL
PO Box 112
Trenton, NJ 08625-0112
(609) 633-8713
lisa.morelli@dol.lps.state.nj.us
Counsel for State of New Jersey
Anne Minard
OFFICE OF THE ATTORNEY GENERAL
Villagra Building
408 Galisteo Street
Santa Fe, NM 87504
(505) 490-4045
aminard@nmag.gov
Counsel for State of New Mexico
Asher Paris Spiller
OFFICE OF THE ATTORNEY GENERAL
PO Box 629
Raleigh, NC 27602
(919) 716-6050
aspiller@ncdoj.gov
Counsel for State of North Carolina

Michael J. Myers
Brian Murray Lusignan
Steven Wu
OFFICE OF THE ATTORNEY GENERAL
The Capitol
Albany, NY 12224-0341
(518) 776-2382
michael.myers@ag.ny.gov
Brian.Lusignan@ag.ny.gov
steven.wu@ag.ny.gov
Counsel for State of New York
Paul Andrew Garrahan
OREGON DEPARTMENT OF JUSTICE
1515 SW Fifth Avenue, Suite 410
Portland, OR 97201
(971) 673-1943
paul.garrahan@doj.state.or.us
Counsel for State of Oregon
Gregory Stage Schultz
OFFICE OF THE ATTORNEY GENERAL
150 South Main Street
Providence, RI 02903
(401) 274-4400
gschultz@riag.ri.gov
Counsel for State of Rhode Island
Christopher Huriaux Reitz
Emily C. Nelson
OFFICE OF THE ATTORNEY GENERAL
PO Box 40117
Olympia, WA 98504-0117
(360) 586-4614
chris.reitz@atg.wa.gov
emily.nelson@atg.wa.gov
Counsel for State of Washington
Nicholas Frank Persampieriz
OFFICE OF THE ATTORNEY GENERAL
109 State Street
Montpelier, VT 05609-1001
(802) 828-6902
nick.persampieri@vermont.gov
Counsel for State of Vermont

Patrick Morrisey
ATTORNEY GENERAL OF
WEST VIRGINIA
Lindsay S. See
Solicitor General
Counsel of Record
Robert D. Cheren
Special Assistant
Thomas L. Lampman
Assistant Solicitor General
1900 Kanawha Blvd. East
Building 1, Room E-26
Charleston, VA 25305
(304) 558-2021
Lindsay.S.See@wvago.gov
Counsel for State of West Virginia
Gabe Johnson-Karp
WISCONSIN DEPARTMENT OF JUSTICE
17 West Main Street
PO Box 7857
Madison, WI 53707-7857
(608) 267-8904
johnsonkarpg@doj.state.wi.us
Counsel for State of Wisconsin
Theodore Hadzi-Antich
TEXAS PUBLIC POLICY FOUNDATION
901 Congress Avenue
Austin, TX 78701
(512) 472-2700
tha@texaspolicy.com
Counsel for Robinson Enterprises, Inc., Nuckles Oil Company, Inc., doing business as Merit Oil
Company, Construction Industry Air Quality Coalition, Liberty Packing Company, LLC, Dalton
Trucking, Inc., NormanR. Brown, Joanne Brown, Competitive Enterprise Institute, Texas Public
Policy Foundation
Eugene Marc Trisko
LAW OFFICES OF EUGENE M. TRISKO
PO Box 330133
Atlantic Beach, FL 32233
(304) 258-1977
emtrisko7@gmail.com

Counsel for International Brotherhood of Boilermakers, Iron Ship Builders, Blacksmiths, Forgers
and Helpers, AFL- CIO, International Brotherhood of Electrical Workers, AFL-CIO, and United
Mine Workers of America, AFL-CIO
David Michael Williamson
WILLIAMSON LAW & POLICY
1850 M Street NW, Suite 840
Washington, DC 20036
(202) 256-6155
maxwilliamson@williamsonlawpolicy.com
Counsel for Biogenic CO2 Coalition
Jeffery Scott Dennis
ADVANCED ENERGY ECONOMY
1000 Vermont Avenue, NW
Suite 300
Washington, DC 20005
(202) 380-1950
jdennis@aee.net
Counsel for Advanced Energy Economy
Eugene Grace
AMERICAN CLEAN POWER ASSOCIATION
1501 M Street, NW
Washington, DC 20005
(202) 383-2500
ggrace@awea.org
Counsel for American Clean Power Association
Richard Umoff
SOLAR ENERGY INDUSTRIES ASSOCIATION
60014th Street NW, Suite 400
Washington, DC 20005
(202) 556-2877
rumoff@seia.org
Counsel for Solar Energy Industries Association
Kevin James Poloncarz
COVINGTON & BURLING LLP
Salesforce Tower
415 Mission Street, Suite 5400
San Francisco, CA 94105-2533
(415) 591-6000
kpoloncarz@cov.com
Beth Susan Brinkmann
COVINGTON & BURLING LLP

850 Tenth Street, NW
Washington, DC 2001-4956
(202) 662-5312
bbrinkmann@cov.com
Counsel for Consolidated Edison, Inc., Exelon Corporation, National Grid USA, New York
Power Authority, Power Companies Climate Coalition, Public Service Enterprise Group
Incorporated, and Sacramento Municipal Utility District

David M. Flannery
Kathy G. Beckett
Edward L. Kropp
Amy M. Smith
STEPTOE & JOHNSON, PLLC
707 Virginia Street East
Charleston, WV 25326
Tel: (304) 353-8000
dave.flannery@steptoe-johnson.com
kathy.beckett@steptoe-johnson.com
skipp.kropp@steptoe-johnson.com
amy.smith@steptoe-johnson.com
Counsel for Movants Indiana Energy

Association and Indiana Utility Group

Barbara Dale Underwood
Solicitor General
Office of the Attorney General
28 Liberty Street
New York, NY 10005-1400
(212) 416-8016
Barbara.underwood@ag.ny.gov
Counsel for Respondents State and Municipalities
Michael John Nasi
JACKSON WALKER L.L.P.
100 Congress Avenue, Suite 1100
Austin, TX 78701
(512) 236-2216
mnasi@jw.com
Counsel for Amici South Texas Electric Cooperative, Inc. et al and Lignite Energy Counsel

John Pagliaro
THE NEW ENGLAND LEGAL FOUNDATION
150 Lincoln Street
Boston, MA 02111
(617) 695-3660
johnpagliaro@nelfonline.org
Counsel for Amicus New England Legal Foundation
Ilya Shapiro
CATO INSTITUTE
1000 massachusetts Ave., NW
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org
Counsel for Amicus The Cato Institute

